No. 20-649
IN THE SUPREME COURT OF THE UNITED STATES
_________________
LEVEL THE PLAYING FIELD, ET AL., PETITIONERS
v.
FEDERAL ELECTION COMMISSION
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via email and first-class mail,
postage prepaid, this 12th day of February, 2021
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,208
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
February 12, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 12, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0649
LEVEL THE PLAYING FIELD, ET AL.
FEC
CORY J. BRIGGS
BRIGGS LAW CORPORATION
99 EAST C STREET
SUITE 111
UPLAND, CA 91786
909-949-7115
CORY@BRIGGSLAWCORP.COM
REBECCA LYNNE DUBIN GORDON
ARNOLD & PORTER LLP
601 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20001
202-942-5372
REBECCA.GORDON@ARNOLDPORTER.COM
ALEXANDRA ANASTASIA EKATERINA
SHAPIRO
SHAPIRO ARATO BACH LLP
500 FIFTH AVENUE
40TH FLOOR
NEW YORK, NY 10110
212-257-4880
ASHAPIRO@SHAPIROARATO.COM
WILLIAM PRICE TEDARDS, JR.
1101 30TH STREET, N.W
WASHINGTON, DC 20007
202-744-1214
BT@TEDARDS.NET

VIA EMAIL

